- - - - Law Offices of David P. Sheldon, PLLC
David P. Sheldon � Admitted in DC, MD & MT
-- -Tami L. Mitchell � Admitted in CO & WI
August 30, 2019
The Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First St. NE
Washington, DC 20543
Re: No. 19-184 United States v. Richard Collins; United States v. Humphrey Daniels III
Dear Mr. Harris:
On behalf of Respondent Humphrey Daniels III, and in accordance with Supreme Court Rule
30.4, I request a thirty-day extension of time to, and including, October 9, 2019 to file a brief in
opposition to the above-referenced Petition for a Writ of Certiorari.
Petitioner twice requested, and was granted, thirty-day extensions of time to file the Petition,
the first to July 10, 2019, and the second to August 9, 2019, when the Petition was ultimately filed.
Pursuant to Rule 15.3 of the Rules of the Supreme Court, Respondents must file their briefs in
opposition by September 9, 2019, unless the time for filing is extended.
There is good cause for this extension. The Petition presents a complex set of issues,
complicated by the fact that the Petition attempts to consolidate two different appeals and in turn
requests that these two cases be consolidated with yet a third, United States v. Michael Briggs, No.
19-108, in which a petition for certiorari is also pending. All three Respondents are represented by
separate counsel, and the three cases, while all involving a similar issue, differ from each other in
potentially material respects. In order to properly address the issues, my office needs an additional
thirty days to consult and coordinate with the attorneys for the other Respondents. The additional time
will also give me the opportunity to engage co-counsel for my own client who are more familiar than I
am with Supreme Court practice.
I can be reached at (719) 426-8967 or tamimitchell@militarydefense.com if there are any
questions. Thank you for your kind consideration of my request.
Very truly yours,

Tami L. Mitchell
100 :\1 Street SE, Suire 600
Washington, DC 20003
(202) 546 9575 (\\'); (202) 546 01,S (t)
\\'\\'\\' .miliran:defc-nsc .com

